0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Deputy
Sheriff Jonathan Lozada, in His Individual Capacity v.
Dudley Teel, as Personal Representative of the Estate of
Susan Teel, was sent via Next Day Service to the U .S.
Supreme Court, and via e-mail and Next Day service to
the following parties listed below, this 16th day of
April, 2021:
Todd Nor braten
Guy Bennett Rubin
Rubin & Rubin
Firm: 772-283-2004
2055 S KANNER HWY
STUART, FL 34994
(305) 975-8633
tnorbraten@rubinandrubin.com
grubin@rubinandrubin.om

Counsel for Respondent
Summer M. Barranco
Counsel of Record
Richard A. Giuffreda
Purdy, Jolly, Giuffreda, Barranco & Jisa, P.A.
2455 East Sunrise Boulevard,
Suite 1216
Fort Lauderdale, Florida 33304
Telephone: (954) 462-3200
summer@purdylaw.com
richard@purdylaw.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Wash ington , DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 16, 2021.

~ ()1 tJ,h..._
Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

:til~

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio

·Y

J

My Commission Expires
February 14, 2023

